         OFFICE OF INSPECTOR GENERAL

                               Catalyst for Improving the Environment



Special Report




         Congressional Request on
         EPA Enforcement Resources
         and Accomplishments

         Report 2004-S-00001


         October 10, 2003
Abbreviations

CID             Criminal Investigation Division
EPA             Environmental Protection Agency
FTE             Full Time Equivalents
FY              Fiscal Year
NPDES           National Pollutant Discharge Elimination System
OCEFT           Office of Criminal Enforcement, Forensics, and Training
OECA            Office of Enforcement and Compliance Assurance
OIG             Office of Inspector General
OMB             Office of Management and Budget
PCS             Permit Compliance System
SAC             Special Agent-in-Charge
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                                  INSPECTOR GENERAL




Foreword

This report responds to a July 24, 2003 letter to the Environmental Protection Agency (EPA)
Office of Inspector General (OIG) from eight Senators and four Representatives. The letter
requested OIG assistance in assessing: (1) whether the EPA Office of Enforcement and
Compliance Assurance (OECA) has sufficient agents and resources to achieve its criminal and
civil enforcement objectives; (2) EPA’s additional duties due to increased homeland security; (3)
whether enforcement resources are being utilized appropriately and effectively; (4) the
effectiveness of OECA’s management approach and structure; and (5) the accuracy of EPA’s
representations of its enforcement efforts.

The letter requested information on eight issues. Those issues, along with summaries of what we
found, are in this report. To expedite the request to provide information that could be used to
finalize EPA’s Fiscal Year 2004 budget, our work consisted primarily of obtaining and analyzing
information from EPA’s management information systems and interviewing individuals involved
in EPA’s enforcement program. Those interviewed included Special Agents-in-Charge involved
with EPA’s criminal enforcement activities and regional officials involved with EPA’s civil
enforcement actions. Due to time constraints, we were unable to verify the accuracy of the data
obtained from EPA’s systems. Appendix A of this report further describes our scope and
methodology.

Regarding EPA's budget recommendations, EPA officials asked that we not disclose the
information they provided because Office of Management and Budget Circular A-11, section 22,
prohibits releasing such information. To accommodate their request, we have not included the
estimates for resources, although we mention some of the needs they identified. Also, although
we have not specifically answered the questions about the sufficiency of resources or the
effectiveness of deterrence, we offer the insights gained by our prior work and other evaluations.




                                                   Nikki L. Tinsley
                           Table of Contents


Issues

   1     Enforcement Duties and Workload . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       1
   2     Budgets and Costs                ...........................................                                        7
   3     Case Load . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    13
   4     Criminal Investigation Division Agents . . . . . . . . . . . . . . . . . . . . . . . . . . .                       17
   5     Criminal Investigation Division Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      19
   6     Criminal Investigation Division Management . . . . . . . . . . . . . . . . . . . . . .                             25
   7     Enforcement Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                31
   8     Water Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            39



Appendices
   A     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                43
   B     Tables for Issue 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       45
   C     Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   59
                                            Issue 1
                     Enforcement Duties and Workload

    1. Recent press accounts have suggested that EPA’s OECA may require supplementary
    resources in order to fulfill its core mission and its recently assigned homeland security duties.
    EPA disputes these claims. Please identify and describe changes to EPA’s criminal and civil
    enforcement duties and workload due to homeland security requirements since September 11,
    2001. In your assessment, please include federal legislative and regulatory requirements,
    counter-terrorism activities, emergency response activities, assisting local law enforcement,
    and shifts in other agencies priorities, and budget and personnel (FTE-Full Time Equivalents)
    data for the last three complete fiscal years as wel1 as for FY 2003 thus far.

The events of September 11, 2001, focused the nation and the Environmental Protection Agency
(EPA) on homeland security. In response to the need for homeland security, EPA shifted
priorities, budget, and personnel to activities that would support homeland security.

Changes to Enforcement Duties and Workload Since September 11, 2001

Following September 11, 2001, EPA’s Office of Enforcement and Compliance Assurance
(OECA) assumed additional duties in conjunction with nation-wide efforts to improve homeland
security. OECA’s Office of Criminal Enforcement, Forensics, and Training (OCEFT) now
provides environmentally related investigative and technical support to the Federal Government’s
homeland security program. Thus, after September 11, the OCEFT mission became two-fold.
Besides investigating environmental crimes, OCEFT would provide 100-percent response to
homeland security environmental threats – such as chemical and water acts of terrorism – behind
the lead of the Federal Bureau of Investigation and the Secret Service. Homeland security not
only includes anti-terrorism activities but protecting the EPA Administrator. According to
OECA staff, all cabinet-level personnel must be provided with protective service details. The
Administrator transferred this responsibility from the Office of Inspector General (OIG) to
OCEFT.

Some of the specific activities OECA’s criminal enforcement staff has taken on include:

•     Working with other Federal agencies on homeland security investigations (e.g., conducting
      interviews of foreign nationals).
•     Participating in providing public safety at national security special events (e.g., the
      Superbowl and July 4th celebrations).
•     Assisting in the anthrax investigation at the U.S. Capitol.
•     Establishing the National Counter-Terrorism Evidence Response Team.
•     Participating in the Joint Terrorism Task Force and more recently established Anti-Terrorism
      Task Force.
•     Giving awareness training and presentations to local and State water authorities.


                                                    1
These duties came from existing environmental laws, as well as three Presidential Decision
Directives issued by President William J. Clinton and a Homeland Security Presidential
Directive issued by President George W. Bush, as shown in Table 1.1:

                                             Table 1.1
                                         Directives Issued

   Directive      Year               Lead Agency                         Title and Purpose

  Presidential   1995     Various Lead Agencies                 U.S. Policy on Counterterrorism:
   Decision               Key Leads:                            Outlines how the United States
   Directive                                                    should ready itself to contend with
      39                  Federal Bureau of Investigation -     domestic and international terrorism:
                          head investigative agency for
                          domestic incidents.                   1. Reducing our vulnerabilities
                                                                2. Deterring terrorism
                          U.S. State Department - protect       3. Responding to terrorism
                          U.S. facilities and citizens abroad   4. Preventing/removing weapons of
                                                                mass destruction

  Presidential   1998     Office of the National                Combating Terrorism: Addresses
   Decision               Coordinator for Security,             deterrence and prevention of
   Directive              Infrastructure Protection and         terrorist attacks, as well as
      62                  Counter-Terrorism                     containment and consequence
                                                                management in the event of a strike.

  Presidential   1998     Various Lead Agencies                 Critical Infrastructure Protection:
   Decision               Some key lead agencies for Sector     Aims to eradicate any significant
   Directive              Liaison:                              vulnerability to both physical and
      63                                                        cyber attacks on U.S. critical
                          EPA - water supply                    infrastructures, especially the cyber
                                                                systems, in order to secure the
                          Commerce - information and            stability and capability of critical
                          communication                         infrastructures.

                          Treasury - banking and finance

   Homeland      2003     Department of Homeland                Management of Domestic
    Security              Security                              Incidents: Enhances the ability of
  Presidential                                                  the United States to manage
   Directive                                                    domestic incidents by establishing a
       5                                                        single, comprehensive national
                                                                incident management system.




Shifts in EPA Budget and Personnel

EPA’s budget is presented to Congress by the goals in EPA’s strategic plan. Goal 9 states the
Agency will ensure full compliance with the laws intended to protect human health and the
environment. This goal is part of EPA’s national enforcement and compliance assurance
program, which is managed by OECA. Funding for the enforcement program is based on what



                                                  2
the President requests and Congress enacts through appropriation legislation. EPA then develops
an operating plan with limits to ensure that costs do not exceed the authorized amounts.

OECA received 80 full-time equivalents (FTE) and about $11 million for homeland security in a
supplemental appropriation that EPA received in the Spring of 2002. Specifically, 70 FTE were
from the Environmental Program and Management appropriation, and 10 FTE were from the
Superfund appropriation. According to the former OCEFT Director, OCEFT did not fill all the
authorized FTE from the supplemental appropriation because it was uncertain whether the
positions would be included in the regular appropriations for the next year. Another OCEFT
official said that they hired 25 people to handle homeland security.

The President’s budget request for 2003 did not include the level of funding that had been
provided by the 2002 supplemental appropriation; it included 30 FTE and about $4 million to
support homeland security. For 2004, EPA sought an increase for homeland security in its
request to the Office of Management and Budget (OMB). The President’s 2004 budget request
included the 30 FTE and about $4 million.

The Goal 9 operating plan for Fiscal Years (FYs) 2000 through 2003, as well as the President’s
request for 2004, is summarized in Table 1.2.

                                              Table 1.2
                             Goal 9 Resource Changes for Fiscal 2000-2004

                                                                           Dollars
   Description                                                     (in thousands)        FTE

   2000 Operating Plan                                                 $376,348.1     2,570.8

                                         Difference*                     $22,067.3     (17.0)

   2001 Operating Plan                                                 $398,415.4     2,553.8

                                         Difference*                     ($4,581.6)    (64.9)

   2002 Operating Plan                                                 $393,833.8     2,488.9

                                         Difference*                     $12,605.7     (12.0)

   2003 Operating Plan                                                 $406,439.5     2,476.9

                                         Difference*                     $24,121.0        3.5

   2004 President’s Request                                            $430,560.5     2,480.4


       *    Represents the difference between the fiscal year operating plans.
       **   The 2002 Operating Plan included the supplemental appropriation



Table 1.3 summarizes the Goal 9 dollars, by program objective, from the President’s request, the
enacted appropriation, the operating plan, and actual costs. During FYs 2000-2003 (and planned
for FY 2004) there were two objectives under Goal 9. For FY 2000 and 2001, these objectives

                                                        3
were (1) “Enforcement Tools to Reduce Non-Compliance,” and (2) “Increase Use of Auditing,
Self-Policing Policies.” Starting in FY 2002, the objectives changed to (1) “Increase Compliance
Through Enforcement,” and (2) “Promote Compliance Through Incentives and Assistance.”

                                             Table 1.3
                                   Goal 9 Dollars (in thousands)
                    Request, Enacted, Operating, and Actual for Fiscal 2000-2004

                              President’s             Enacted              Operating                  Actual
    FY      Objective            Request               Budget                   Plan                  Costs
   2000     01                 $292,917.6           $322,387.5            $323,360.1              $320,647.2
            02                  $38,417.4            $49,417.2             $52,988.0               $50,291.8
                 Total         $331,335.0           $371,804.7            $376,348.1              $370,939.0

   2001     01                 $351,306.7           $345,554.5            $345,554.5              $335,773.1
            02                  $52,464.8            $52,860.9             $52,860.9               $55,786.0
                  Total        $403,771.5           $398,415.4            $398,415.4              $391,559.1

  2002*     01                 $356,652.5           $337,781.6            $338,137.5              $345,342.0
            02                  $54,563.2            $55,768.5             $55,696.3               $54,049.1
                  Total        $411,215.7           $393,550.1            $393,833.8              $399,391.1

  2003**    01                 $346,590.5           $346,181.7            $349,251.7              $274,499.5
            02                  $55,872.4            $55,907.2             $57,187.8               $44,155.9
                  Total        $402,462.9           $402,088.9            $406,439.5              $318,655.4

   2004     01                 $372,173.1
            02                  $58,387.4
                  Total        $430,560.5

       *    The 2002 Enacted Budget and Operating Plan included the supplemental appropriation.
       **   The 2003 Actual Costs are as of August 28, 2003.


Table 1.4 provides the same information for the FTE related to Goal 9. Both the enacted dollar
and FTE figures for FY 2002 were less than for 2001, even though the 2002 figure included the
supplemental appropriation EPA received in response to the events of September 11, 2001.




                                                      4
                                            Table 1.4
                                           Goal 9 FTE
                    Request, Enacted, Operating and Actual for Fiscal 2000-2004

                                          President’s         Enacted          Operating        Actual
           FY         Objective              Request           Budget               Plan          FTE
          2000        01                      2,192.1          2,148.1           2,148.2       1,925.4
                      02                        348.0            422.6             422.6         388.6
                               Total          2,540.1          2,570.7           2,570.8       2,313.9

          2001        01                        2,149.2           2,130.5          2,130.5     1,905.7
                      02                          423.5             423.3            423.3       399.0
                                Total           2,572.7           2,553.8          2,553.8     2,304.6

         2002 *       01                        1,910.3           2,075.9          2,072.6     1,990.5
                      02                          420.0             416.6            416.3       405.6
                                Total           2,330.3           2,492.5          2,488.9     2,396.1

         2003 **      01                        1,932.6           2,071.1          2,074.2     1,804.7
                      02                          398.1             399.3            402.7       371.6
                                Total           2,330.7           2,470.4          2,476.9     2,176.3

          2004        01                        2,079.3
                      02                          401.1
                                Total           2,480.4

       * The 2002 Enacted Budget and Operating Plan included the supplemental appropriation.
       ** The 2003 Actual FTE are as of August 29, 2003.


Three key activities under the national enforcement program are civil enforcement, criminal
enforcement, and homeland security. Based on information provided by OECA, the FTE from
the enacted budgets associated with each activity for 2000-2003 are summarized in Table 1.5.

                                                 Table 1.5
                                           Enacted Budget FTE
                                        For Selected Key Activities

                                      Civil          Criminal       Homeland
                     FY       Enforcement        Enforcement         Security        Total
                    2000             957.0              246.5             0.0      1,203.5
                    2001             956.7              248.5             0.0      1,205.2
                    2002                915.0             242.6             80.0   1,237.6
                    2003                932.5             238.5             30.0   1,201.0




                                                      5
6
                                        Issue 2
                               Budgets and Costs

 2. Provide specific numbers concerning EPA's enforcement budget and FTE by program and
 region within OECA between FY 2000 and FY 2003 as compared with the requested FY 2004
 budget.

     a. Please identify OECA's criminal and civil enforcement needs, requests and
     appropriations between FY 2000 and FY 2003 and prospectively for FY 2004. In doing
     so, please report and compare field needs assessments and requests, EPA's budget
     recommendations, the administration's budget requests, FY and supplemental
     appropriations, and operating plans. Please provide data by division within OECA as well
     as for OECA as a whole. We are additionally interested in finding out how many FTE's
     are engaged solely in ensuring compliance with and enforcing New Source Review and
     Superfund requirements during the above mentioned time frame.

     b. Please provide us with a breakdown of contracting expenses allocated by OECA
     division between FY 2000 and FY 2003.

     c. Using the data obtained in (a) above, please evaluate whether OECA has sufficient
     budget and FTE by division to adequately manage its enforcement program and enforce
     the nation's environmental statutes.

The tables on budget and cost information for EPA enforcement activities are presented in this
report in three ways: Goal 9, OECA, and the national enforcement and compliance assurance
program. There is some overlap in what is covered by these three perspectives, but also some
differences. Table 2.1 on the next page depicts these relationships. As stated in Issue 1, Goal 9
covers EPA’s work to ensure full compliance with the laws intended to protect human health and
the environment. It includes activities of OECA, other major EPA organizations, and the
regional offices. OECA, which manages the national enforcement and compliance assurance
program, performs activities under Goal 9, Goal 5 (“Better Waste Management, Restoration of
Contaminated Sites, and Emergency Response”), and Goal 7 (“Quality Environmental
Information”). The national enforcement and compliance assurance program includes OECA
plus activities by the EPA regional offices under Goal 9 and Goal 5. Funding for the EPA
enforcement activities comes from various appropriations.

OECA prepares the dollar and FTE figures for the national enforcement and compliance
assurance program. The budget proposals for the enforcement program included a total for the
regions, but not a breakdown of the request by region. In recent years, EPA’s budget
recommendation to OMB for the national enforcement program has been for more dollars than
the President’s budget request. Because budget preparation at EPA is a top-down process,
according to OECA staff, the offices do not spend much time on needs assessments. Due to
weaknesses in OECA’s systems and information for tracking workload and measuring results, as

                                                7
well as time constraints, we were unable to assess whether OECA has sufficient resources to
enforce the nation’s environmental statutes.

                                               Table 2.1
                                Relationship Between OECA, EPA Goals,
                   and the National Enforcement and Compliance Assurance Program

                        Organization                            Goal 9   Goal 5 *         Goal 7 *
         Region 1                                                XXX
         Region 2                                                XXX
         Region 3                                                XXX
         Region 4                                                XXX
         Region 5                                                XXX
         Region 6                                                XXX
         Region 7                                                XXX
         Region 8                                                XXX
         Region 9                                                XXX
         Region 10                                               XXX
         Office of Enforcement and
          Compliance Assurance                                   XXX
         Office of Administration and
          Resources Management                                   XXX
         Office of Chief Financial Officer                       XXX
         Office of General Counsel                               XXX


 * This includes only the enforcement-related activities of the goal.

   XXX      =    Goal 9. See Tables 1.2, 1.3, 1.4, B.1, B.2, and B.3.

            =    Office of Enforcement and Compliance Assurance. See Tables B.4, B.5, B.6, and B.7.

            =    National enforcement and compliance assurance program, which is managed by OECA.
                 See Tables 1.5, 2.2, B.8, B.9, B.10, B.11, and B.12.




                                                            8
Preparing the Enforcement Budget

Preparing EPA’s budget is a top-down process. The Administrator and top managers decide on
the initiatives and targets for the proposed budget. Thus, in OECA, the offices prepare
justifications for the figures provided to them.
Following is a summary of how EPA’s budget                                  Table 2.2
recommendation to OMB for the national enforcement               How did EPA’s request to OMB
and compliance assurance program differed from the            differ from the President’s request?
President’s budget request (see Table 2.2). Except for
FY 2000, when the figures were the same, EPA                      FY        Dollars         FTE
requested more dollars for the program than what the             2000        Same          Same
President requested.
                                                                   2001        More          More
OCEFT did submit requests for funding initiatives for           2002           More             *
FY 2000, 2001, and 2003. These initiatives included:
establishing a National Enforcement Experts                     2003           More          Less
Clearinghouse, providing additional field support,           * FTE figures for FY 2002 were not
providing training on the internet, furnishing the new       required in the budget recommendation to
                                                             OMB, according to Agency records.
laboratory in Denver, obtaining a secure data system,
and establishing a senior environmental enforcement
training corps. They did not include a counter-terrorism
initiative for FY 2001 that was identified in a July 1999 memorandum because the OCEFT
official believed OMB would not fund it. Some of these initiatives, like furnishing the Denver
laboratory, were incorporated in the President’s budget request. Others, like the secure data
network, were not.

Besides these initiatives, both OCEFT and the Office of Regulatory Enforcement prepared
requests for funds that might become available during the year. For example, late in FY 2002,
OCEFT asked for funding for digital radios, a secure data network, and background
investigations, so the staff could get top secret clearances. A similar request was made in 2003
and, according to an OECA official, a small portion of their needs were met.

Goal 9 Costs by Major Organization

Various tables related to Issue 2 are in Appendix B. Table B.1 in that appendix summarizes
Goal 9 actual costs by major organization (“major organizations” generally equate to an EPA
headquarters or regional office) for FY 2000-2002 and for 2003 as of August 28, 2003.
Similarly, Table B.2 summarizes the Goal 9 actual FTE by major organization as of August 29,
2003. Part of Goal 9 relates to Superfund. Therefore, some of the resources for the program
were charged to that appropriation. Table B.3 summarizes the actual Superfund FTE by major
organization.




                                                   9
OECA Costs

OECA’s costs during FY 2000-2003 were primarily charged to Goal 9. As shown in Table B.4 ,
personnel in OECA also performed work related to Goals 5, 6, and 7. Table B.5 shows OECA
costs by office and, where possible, by division. Similarly, Table B.6 summarizes actual FTE.
Part of the costs incurred by OECA were for contracts and assistance agreements. These costs
are summarized in Table B.7 .

National Enforcement and Compliance Assurance Program Resources

The national enforcement and compliance assurance program, which is managed by OECA,
includes all of OECA, plus the regional offices’ activity under Goal 9 and Goal 5. OECA
provided figures related to the national enforcement program. Table B.8 summarizes resource
changes in the national enforcement program between years from FY 2000 to 2004. Table B.9
summarizes the operating plan in dollars, by regional and OECA offices, for this program in
FY 2000-2003. Table B.10 , Table B.11 , and Table B.12 summarize the budgeted FTE for the
national enforcement program, by regional and OECA offices, by appropriation, and by goal,
respectively, in FY 2000-2003.

FTE for New Source Reviews

EPA does not track costs for specific types of inspections, such as New Source Reviews under
the Clean Air Act. Therefore, we were unable to identify actual FTE engaged in specific
enforcement and compliance activities. However, to answer a 2004 budget question from the
Senate Environment and Public Works Committee, EPA estimated that it had invested more than
200 FTE in New Source Review enforcement since 1999, or an average of about 67 FTE per
year. To ascertain the FTE dedicated to New Source Review enforcement for the budget
question, the OECA Office of Regulatory Enforcement’s Air Enforcement Division queried each
of the Regional air enforcement branch chiefs about the number of FTEs working on New Source
Review enforcement since 1999. They added the numbers, along with the FTE assigned to New
Source Review enforcement in OECA, and came up with the total of 200 FTE.

Sufficiency of Resources

Past OIG reports have noted funding shortfalls in various parts of the enforcement program. For
example, OIG report 2000-P-00010, Biosolids Management and Enforcement, issued March 20,
2000, raised concerns surrounding OECA’s decision not to commit enforcement resources to the
biosolids program. In response to our report, an Agency official stated that enforcement
resources were limited, and the biosolids program was a low priority for enforcement. OIG
believes that this decision may result in increased non-compliance with biosolids regulations,
which would increase risks to the environment and human health. According to OECA, EPA has
taken actions to address biosolids violations, particularly where biosolids pose an immediate
endangerment to human health or the environment.


                                              10
A more recent report, OIG report 2003-M-00014, EPA Should Take Further Steps to Address
Funding Shortfalls and Time Slippages in Permit Compliance System Modernization Effort,
issued May 20, 2003, discussed in Issue 8, also identified funding concerns.

Although OCEFT management and our prior work have noted funding shortfalls in certain areas,
EPA lacks sufficient information on workload and results that would allow us to evaluate the
overall sufficiency of funds for EPA’s enforcement activities. For example, as later discussed
under Issues 3, 5, and 6, OCEFT does not have systems in place to track workload information,
such as investigative leads transferred due to a lack of resources, that could be used to develop
estimates for its budget. Also, as discussed under Issue 7, EPA lacks outcome measures that
would allow EPA and others to evaluate the environmental results achieved. Having results
information to compare with dollars invested in the enforcement program would be useful in
making well-informed decisions about the level of investment that should be made in EPA’s
enforcement program.




                                               11
12
                                            Issue 3
                                           Case Load

 3. Recent news reports indicate that EPA has a backlog of 1,500 criminal cases due to
 inadequate resources. Please identify the extent, and provide a description, of any EPA
 criminal case backlog. Has EPA failed to prosecute or pursue any civil or criminal cases due,
 in any part, to insufficient resources?

Case Load

As noted in Table 3.1, EPA has a current case load of criminal cases and selected civil actions
(under three laws) totaling about 3,800 cases. The 1,190 open criminal cases are at various
stages of the criminal enforcement process, from the investigative stage through litigation. The
open criminal cases include 961 at the “pre-indictment stage” (i.e., cases still within the criminal
enforcement program’s investigative jurisdiction). Regarding civil cases, the information we
sought from the Agency was
limited to the three programs (other                                    Table 3.1
than Superfund) that encompass                                    Current Case Load
the major portion of the civil
enforcement workload. Further,            Type of Case                                                 No.
the OECA staff explained it was
                                          Criminal *                                                  1,190
difficult to limit the information to
cases at a specific stage in the          Civil **
enforcement process, as we had                Clean Air Act                                           1,041
requested, “because of the nature             Resource Conservation and Recovery Act                    874
of the case development process,              Clean Water Act                                           753
we cannot generate a complete
                                          Total                                                       3,858
snapshot of our enforcement work
load, where at any one time we
may be resolving violations            * As of August 26, 2003.
informally, gathering additional       ** As of August 9, 2003. Clean Air Act represents universe of High
                                           Priority Violators; Resource Conservation and Recovery Act
evidence following an inspection to        represents universe of Significant Non-Compliers; and Clean Water
develop a referral, or deciding            Act represents major National Pollutant Discharge Elimination
whether to proceed                         System facilities in Significant Non-Compliance.

administratively or judicially.”

When EPA develops sufficient evidence, EPA refers the case to the Department of Justice for
criminal prosecution or civil enforcement. During FY 2002, 198 criminal cases were referred
for Federal prosecution. However, the Department of Justice may decline to take the case.
When this occurs in a criminal enforcement case, the OCEFT staff may refer the case to State
prosecutors (52 criminal cases were referred for State prosecution in FY 2002) or EPA’s civil
enforcement program. During FY 2002, 53 criminal cases were declined by Federal or State
prosecutors orally, and 38 were declined in writing.

                                                    13
Pursuing Criminal Cases

OCEFT staff in the Criminal Investigation Division (CID) open criminal cases based on criteria
in a 1994 policy memorandum on investigative discretion. The criteria are significant
environmental harm and culpable conduct. Additionally, three of the five Special Agents-in-
Charge we interviewed said they work with their EPA regional staff to address regional priorities
and concerns. However, three of the five Special Agents-in-Charge also told us that they will not
open a new case if they believe they do not have adequate resources to handle it. Instead, they
will refer the leads to EPA’s civil enforcement program or to State authorities. CID does not
have an automated tracking system for leads, or know the number of leads transferred to others
due to a lack of resources. The figures on the disposition of leads shown in Table 3.2 were
compiled manually. This information will be automated when the Criminal Docket is replaced
by the Case Results System.

                                                Table 3.2
                              Disposition of Leads Received in Fiscal 2002

                                                             Referred to       Referred to       Opened as a
    Under           Closed Prior        Referred to              EPA             Other            Criminal
  CID Review         to Referral        State/Local         Civil Program       Federal             Case

  270 (14%)          415 (21%)           702 (35%)            188 (9%)           91 (5%)           310 (16%)




Table 3.3 summarizes the number of criminal cases opened and closed in recent fiscal years, and
the number still open at the end of each year, or as of August 26, 2003, for fiscal 2003.

                                             Table 3.3
                     Criminal Cases Opened, Closed and Outstanding – 2000-2003

                                              2000               2001              2002              2003 *

 Initiated during the year
     Environmental crimes                      477                482                484               435
     Counter-terrorism                           0                  0                190 **             32
                          Total                477                482                674               467

 Closed during the year
    Environmental crimes                       452                407                451               471
    Counter-terrorism                            0                  0                105                 0
                           Total               452                407                556               471

 Open at end of the year
   Environmental crimes                      1,001              1,076              1,109             1,073
   Counter-terrorism                             0                  0                 85               117
                           Total             1,001              1,076              1,194             1,190

 * As of August 26, 2003
 ** After the FY 2002 accomplishment reports were issued, 10 additional counter-terrorism cases were identified.
    For consistency with the accomplishments reports, we have not included the additional cases.


                                                       14
As shown in Table 3.3, the number of cases still open at the end of recent years ranged from
1,001 to 1,194. With a few exceptions, most of the cases currently open were initiated after
1999. According to one Special Agent-in-Charge, for various reasons a case may go 30 to 60
days with little activity. An example cited by OECA was if another case is nearing litigation, the
agent will need to concentrate on supporting that case for the U.S. Attorney. As another
example, the five Special Agents-in-Charge said protecting the Administrator when the
Administrator traveled did result in a period of time when the agents were unable to work on
their environmental crime cases. This is because, when the Administrator traveled, agents in the
field performed advance checks on sites the week before the Administrator’s arrival, and
provided protective services during the visit. To track the time spent by agents protecting the
Administrator, CID opened cases for these protective service details. During FY 2002 and 2003,
CID opened 150 and 141 cases for protective service details, respectively. However, the 150
cases in 2002 were not included in the number of criminal cases reported by CID. Four of the
five Special Agents-in-Charge said they did not believe that protecting the Administrator was
part of CID’s mission to investigate environmental crimes.

Pursuing Administrative Actions and Civil Judicial Cases

We did not find evidence of failures to pursue civil cases. Due to time constraints, we were
unable to review files, and had to rely on interviews with EPA regional officials for information
about these cases. We interviewed officials in Regions 2 and 6 about Clean Air Act enforcement
cases and in Regions 5 and 7 about Resource Conservation and Recovery Act cases. The data we
received indicated delays in pursuing enforcement in some of the cases, but we did not find
evidence of failures to pursue civil cases. In some cases, regional officials told us there were
data errors and the facilities should not have been on the list because formal enforcement actions
had been taken, or it had been determined that formal enforcement was not required.

The regional officials stated they did not always take formal enforcement actions within time
frames established by EPA’s enforcement policies. However, one regional official said they try
to ensure the statute of limitations does not expire. Homeland security was not cited as a factor
for delays in pursuing civil cases, but various other reasons were cited such as:

•   Resources were needed for higher priority cases (e.g., special initiatives such as refineries and
    utilities under the Clean Air Act and wood treaters under the Resource Conservation and
    Recovery Act).
•   Staff were assigned to work on major disasters (i.e., responding to the World Trade Center
    and Columbia shuttle disasters).
•   A complex information request had to be prepared.
•   EPA had to coordinate with State authorities.
•   The attorneys had to be consulted.
•   There was a turnover of experts, such as engineers, attorneys, and scientists.




                                                 15
16
                                        Issue 4
              Criminal Investigation Division Agents

 4. Recent news accounts have asserted that EPA has inflated its numbers of Criminal
 Investigation Division (CID) agents by loosely defining "agent," which EPA disputes. Please
 assess EPA's requirements for qualification as an "agent," delineating different grades of
 agents and their responsibilities. Please provide the number of staff in each grade and
 compare these levels for each of the last three complete fiscal years and FY 2003 thus far.

We found no indication that EPA has loosely defined “agent.” To pursue criminal investigations,
OECA employs Special Agents who are series 1811 (Criminal Investigator) employees. These
Special Agents are Federal law enforcement officers with arrest and seizure authority. They are
responsible for investigating allegations of environmental crime activity, assisting prosecutors in
developing cases, and providing support to a variety of enforcement partners. The Office of
Personnel Management establishes the qualifications for series 1811 employees. To fill these
positions, OECA uses vacancy announcements that reflect the Office of Personnel Management
qualifications.

Most Special Agents work in CID within OECA’s OCEFT. Over the last 4 years, the number of
Special Agents in CID has varied from 171 to 211. The number of investigators in other parts of
OECA has increased from 6 to 20 over the same 4 years, as shown in Table 4.1

According to the Pollution                                      Table 4.1
Prosecution Act of 1990,             Number of OECA Staff in July 2000, 2001, 2002, and 2003
Criminal Investigators in
OCEFT’s predecessor                         Description             2000  2001    2002     2003
organization should number at
                                  Investigators in CID               173   171     211      203
least 200 by October 1, 1995.
As shown in Table 4.1, the        Investigators not in CID              6    9      12       20
number of Criminal                Other OECA employees               706   690     729      761
Investigators has ranged from
                                                  Total OECA Staff   885   870     952      984
179 to 223 between 2000 and
2003. Generally, CID agents        CID Agents as % of OECA Staff       20   20      22       21
comprised about 20 percent of
the OECA staff. The lower
number of Criminal Investigators in 2000 and 2001 can be attributed to a hiring freeze that was
imposed on OECA, and thus on OCEFT and CID, between June 1999 and March 2001. It started
as an Agency-wide freeze initiated by former Administrator Browner because Congress was
expected to reduce the Agency budget for FY 2000. The freeze on OECA was continued by
President Bush as part of a government-wide freeze. The freeze on OECA was lifted in
March 2001.



                                                17
The Office of Personnel Management establishes the criteria for Criminal Investigators hired
under series 1811. According to that Office, the grade level for these investigators varies with
the complexity of assignments and level of responsibility. EPA’s vacancy announcements and
position descriptions for series 1811 Special Agents in CID reflect these requirements. For
example, a grade 7 Special Agent serves in a trainee capacity while a grade 13 Special Agent
handles difficult and complex investigations. According to the Special Agents-in-Charge we
interviewed, this difference was reflected in the number of cases assigned to individual agents.
Thus, less experienced agents were assigned fewer cases and spent more time in training.

As summarized in Table 4.2, the Special Agents in CID ranged in grade from 5 to senior
executive. After the hiring freeze was lifted in March 2001, the number of entry-level agents
(i.e., grade 7) increased substantially. However, in all 4 years the proportion of management-
level agents (those in grades 14 and above) remained under 20 percent of the agents.


                                             Table 4.2
                                    CID Special Agents by Grade
                                 In July 2000, 2001, 2002, and 2003

                         Grade              2000          2001         2002   2003
                           00*                 0             1            1      1
                          15                  20            18           21     20
                          14                  14            13           12     17
                          13                 108           120          135    128
                          12                  15            11            8      3
                          11                  11             4            2      5
                          09                   4             2            5     25
                          07                   0             2           26      3
                          05                   1             0            1      1
                             Total           173           171          211    203


                      * Grade 00 is in the senior executive service.




                                                     18
                                         Issue 5
               Criminal Investigation Division Cases

 5. Recent news reports suggest that CID is using a loose definition of "case" and
 "investigation," and is including anti-terrorism and drug prevention activities in its
 enforcement figures. Within this division:

     a. Please identify and describe how CID categorizes, records, logs and tracks cases and
     investigations and whether these categorizations have changed since FY 2000. Please
     provide a summary of the categories and number of cases and investigations CID initiated,
     completed, and opened in FY 2000, 2001, 2002, and, if possible, in FY 2003, and the
     amount of any backlog.

     b. Please provide a summary and description of CID's enforcement results for each of the
     last three complete fiscal years and FY 2003 thus far, i.e. how many notices of violation
     have been issued, pollution reductions, fines and penalties, and prison sentences, by case
     type, i.e. counter-terrorism, drug enforcement, air, water, solid waste pollution reduction,
     etc. In the case of final actions that will reduce future air emissions, please describe the
     amount of annual emissions avoided and the year in which such reductions will
     commence.

Types of Criminal Cases

CID provided its staff with guidance on when to open a case, and a management system to track
cases by various categories. Two categories of cases have been added to capture the additional
duties assumed by the enforcement program after September 11, 2001: counter-terrorism and the
protection detail for the Administrator. The counter-terrorism cases are reported in OECA’s
enforcement figures. In OECA press releases on the results of criminal cases in FY 2002, OECA
sometimes (but not always) added a footnote identifying how many of the criminal cases opened
during the year were related to counter-terrorism. CID does not have a category for drug cases;
their involvement in such cases is based on a violation of an environmental law. For example, an
illegal methamphetamine laboratory may violate requirements of the Resource Conservation and
Recovery Act since such a laboratory often produces significant amounts of hazardous waste.

When CID opens a new case, the staff records information about it in a system called Criminal
Docket. For each case, one or more media codes are associated with the case. These media
codes are roughly equivalent to the environmental law under which the case is being pursued.
For example, there is a media code related to the solid waste (or hazardous waste) program under
the Resource Conservation and Recovery Act. There is also a code for violations of Title 18 of
the U.S. Code, i.e., general criminal violations such as false statements or conspiracy. This is the
code used to record counter-terrorism cases. A single case may have more than one media code
associated with it. The Special Agents try to determine whether the criminal actions extended
beyond a single environmental law. Consequently, OECA does not usually report case

                                                 19
information by media externally in its end-of-year reporting, although CID does track cases by
media internally. When such information is needed by media, CID categorize the cases using the
first media code listed. Table 5.1 identifies the media codes and summarizes the number of
criminal cases opened in recent years.

                                                Table 5.1
                              Cases Initiated by Media In Fiscal 2000-2003


       Media Description                         2000        2001       2002      2003 *
       Air                                          91        108            77     69
       Superfund                                    11         15            11      5
       Emergency Planning and                          2        2             2      0
       Community Right to Know Act
       Pesticides                                      6       17            15     15
       Other                                           5        7             3      5
       Solid Waste                                 135        108        107        88
       Toxics                                          7        9            17     12
       Title 18 Violation                           36         46        198        53
       Water/Wetlands                              170        159        227       123
       Safe Drinking Water                             3        5            12      8
       404 (Wetlands)                               11          6             5      1
             Total                                 477        482        674       379

        * Through June 2003




When counting the number of criminal cases opened in 2002, which was one of the performance
measures under OECA’s annual performance goal 59, the counter-terrorism cases were included
in the 674 claimed. In some of the reports, the number of counter-terrorism cases were noted
separately. For example, they were separately identified in OECA’s 2002 annual performance
report and in the narrative of EPA’s 2002 annual performance report, but not in the statistical
part of EPA’s 2002 annual performance report. OECA was able to identify which of the Title 18
cases related to counter-terrorism because these cases were assigned an administrative code in
addition to the media code.

Enforcement Results

Table 5.2 summarizes by media the criminal cases closed in FY 2000-2002 and through June
2003 for FY 2003. The results of the completed criminal cases fall into two types: punishments
imposed by the court, and pollutant reduction information. (Notices of violation are related to a
civil enforcement action, not a criminal case.) The punishments include jail sentences,
probation, fines, and restitution. If a jail sentence or probation for different charges are
concurrent, OECA reports the greater jail time, and, if they are consecutive sentences, OECA


                                                  20
totals the years. Tables 5.3 and 5.4 summarize the results of criminal cases closed in FY 2000-
2002 and through June 2003 for FY 2003. These results are shown by the primary media code
for the case.
                                              Table 5.2
                              Criminal Cases Closed In Fiscal 2000-2003


       Media Description                           2000         2001    2002      2003 *
       Air                                            89          75       73       68
       Superfund                                      22          12       19        5
       Emergency Planning and                            0         3        1        0
       Community Right to Know Act
       Pesticides                                     16          10       11        9
       Other                                             3         4        6        6
       Solid Waste                                  111          119      119       87
       Toxics                                            7         8       11        6
       Title 18 Violation                             31          19      131       61
       Water/Wetlands                               159          146      173      132
       Safe Drinking Water                               7         4        7        8
       404 (Wetlands)                                    7         7        5        2
             Total                                  452          407      556      384

       * Through June 2003

                                              Table 5.3
                                   Years of Incarceration Imposed
                                For Cases Closed In Fiscal 2000-2003


       Media Description                           2000         2001    2002     2003 *
       Air                                          22.7         33.5     52.8    36.8
       Superfund                                     1.2        115.8      3.4      0.0
       Emergency Planning and                        0.0          1.5      0.0      0.0
       Community Right to Know Act
       Pesticides                                    0.3          0.5      0.0      1.1
       Other                                         0.5          9.0      1.6      0.0
       Solid Waste                                  71.5         42.4     85.7    38.8
       Toxics                                        2.3          3.0      9.3      3.0
       Title 18 Violation                            4.5          2.6      6.1      9.0
       Water/Wetlands                               35.3         44.0     51.8    44.0
       Safe Drinking Water                           7.6          0.0      4.0      1.3
       404 (Wetlands)                                0.3          3.6      0.5    11.5
             Total                                146.2         256.0   215.2    145.3

        * Through June 2003
       In some cases, columns may not add up due to rounding.



                                                    21
                                           Table 5.4
                                Fines and Restitution Assessed
                              For Cases Closed in Fiscal 2000-2003

Media Description                          2000              2001           2002           2003*
Air                                  $5,714,318        $25,315,683    $7,162,382     $35,876,963
Superfund                                70,400         16,742,004     3,054,294          28,000
Emergency Planning and
Community Right to Know
Act                                           0            15,000              0               0
Pesticides                              583,745           128,505        120,100          26,932
Other                                 3,757,500          8,298,637       356,700               0
Solid Waste                          38,509,153          1,611,479     2,569,531       1,444,894
Toxics                                1,492,084           357,336        280,000           3,100
Title 18 Violations                   2,276,399          4,033,036    18,771,955       5,348,580
Water/Wetlands                       39,730,733         37,937,841    29,865,606      21,725,084
Safe Drinking Water                  29,840,156              8,000         8,750           7,934
404 (Wetlands)                                0           278,762         63,000         122,100
              Total                $121,974,488        $94,726,283   $62,252,318     $64,583,587

 * Through June 2003


When reporting the results related to a case, CID includes all the punishments imposed by the
court, even if the conviction was not related to one of the environmental statutes. CID reports
convictions that are not environmentally related as an accomplishment because CID opened the
case based on a potential violation of an environmental statute. However, the Department of
Justice decides what charges will be filed. For example, according to one Special Agent-in-
Charge, the Drug Enforcement Agency is usually the lead on drug enforcement cases.
However, if a decision is made not to pursue the drug charges, the defendant could be charged
with an environmental crime. The sentences related to environmental crimes are usually
smaller. Further, the Special Agent-in-Charge said that when the prosecutor and the defendant
plea bargain, environmental penalties may be eliminated.

CID believes that it is appropriate to include “non-environmental” statute fines and penalties
(e.g., drug counts, false reporting, witness tampering, mail fraud, conspiracy) when they are
integral elements of a criminal environmental prosecution. According to CID staff, inclusion of
these relevant “non-environmental” sanctions has been standard procedure over the history of
the EPA criminal enforcement program, as well as being accepted practice across the Federal
law enforcement establishment. According to an OCEFT official, CID has been involved in at
least 10 drug-related cases that were closed in 2000 through 2003 to date. These cases resulted
in $2,000 in fines, 1,934 months of incarceration, and 300 months of probation.

Although CID has reported the results of its cases in terms of court-ordered punishments for
several years, measuring pollutant reductions related to criminal cases is recent. The pollution
reduction amounts are generally limited to the pollution released that is the basis for the case,


                                                  22
and normally does not include estimates of future release that are avoided because of the case.
Future reductions are measured under the civil enforcement program. However, there can be
“future” pollutant reductions in individual criminal cases (e.g., if CID investigates a
chlorofluorocarbon smuggling operation and its illegal inventory is confiscated before it can be
sold). CID recently completed its quality assurance review of the pollutant reduction
information for cases closed in FY 2002. They found pollutants were reduced by 20.5 million
pounds. Although CID has figures on pollutant reductions for 2000 and 2001, the quality of the
figures was uncertain and the figures were not included in the annual performance reports.




                                               23
24
                                        Issue 6
        Criminal Investigation Division Management

 6. Please describe the management, reporting and accountability structure at CID. Identify
 any perceived gaps, shortcomings or strengths in meeting performance goals and fulfilling
 the division's mission.

There are policies in place governing the work performed by CID, and some management
information systems and measures to track the work and report results. However, it appears
that the management systems for tracking leads, time, results, and training need improvement.
Within the organization there is concern about leadership, communication, and resources. Due
to time constraints, we were unable to confirm the issues brought to our attention in interviews.
Despite management problems, CID is carrying out its mission to investigate criminal
violations of the environmental statutes.

Management

CID is headed by a Director. CID’s Deputy Director position has been vacant since 2000,
although two individuals have intermittently served as the acting Deputy Director. The CID
Director reports to the OCEFT Director, who in turn (as required by the Pollution Prosecution
Act of 1990) reports to the Assistant Administrator for Enforcement and Compliance
Assurance. The OCEFT Director formally meets with his division directors once a week.
Similarly, the OCEFT Director meets periodically with the Assistant Administrator.

As shown in Table 6.1, CID has three branches, each headed by a Special Agent-in-Charge
(SAC) who reports to the CID Deputy Director. The three branches are the: Investigations
Branch, Operations Branch, and the Center for Strategic Environmental Enforcement. Not all
of the staff in these organizations are physically located at Headquarters. There are 16 area
offices, each headed by a SAC who reports to the CID Deputy Director. There is also an
assistant SAC for most area offices. Most of the area offices have one or more resident offices
at other locations. Most resident offices are headed by a Resident Agent-in-Charge, who
reports to the SAC of the area office. A few of these resident offices have only one person.
Between the area offices and resident offices, CID has Special Agents at 47 locations around
the United States.

According to CID staff, there is frequent formal and informal communication between the area
office SACs and the CID Headquarters staff. The CID Director and the SACs have biweekly
conference calls to discuss operations. In addition, each week the area office SACs send the
CID Headquarters staff a written report on work during the past week as well as work planned
for the week ahead, updates on significant cases, and information on indictments. Resources
permitting, CID tries to bring all the SACs together for a meeting at least once a year. The most
recent meetings were in December 2001, May 2002, and October 2002; a meeting scheduled for
April 2003 was canceled because funding was not available. The agenda for the October 2002

                                                25
                                                      Table 6.1


                                       Environmental Protection Agency
                                           Criminal Investigation Division
                                                Organization Chart



                                                 CID Director (HQ)




                                                CID Deputy Director
                                                       (HQ)



                                                             16 Area Office SACs
                                                                   (Field)




                                                              31 Resident Office
                                                                 RACs (Field)



                         Center for Strategic
                           Environmental         Operations Branch        Investigations
                          Enforcement SAC            SAC (HQ)            Branch SAC (HQ)
                                 (HQ)




meeting included such topics as: the Equal Employment Opportunity process; integrating the
civil and criminal programs; the protective service detail; the criminal enforcement mission; a
historical perspective on terrorism and a threat analysis for today; and homeland security
initiatives.

Four of the five area office SACs we interviewed told us they were concerned about
communication, resource, or leadership issues. Their specific concerns varied. For example,
one said that staff in the field are not given the opportunity to provide input on management
decisions, such as which of the agents will be assigned to the National Counter-Terrorism
Evidence Response Team, an assignment which requires additional training. OCEFT
established an Executive Advisory Committee in April 2003 to increase communication
between management and employees. The OCEFT Executive Advisory Committee replaced
several previous advisory committees. The previous committees had not met since at least
August 2001, when the prior OCEFT director decided to merge them into one group so there
would be less duplication. Thus, during the period when homeland security and protective
detail responsibilities were added to the duties of CID (and OCEFT) staff, the advisory
committees were not available as a formal way for employees to share concerns with
management.

All five area office SACs with whom we spoke said agents needed better or additional
equipment. For example, four mentioned modern computers; one said agents are using
Pentium 1 model computers, and another said their computers were donated to them. Other



                                                            26
equipment needs identified ranged from digital radios and a secure data network, to flashing
lights and emergency equipment in their cars.

One SAC believed priorities for using resources should be changed; e.g., CID invested in a
computer forensics office when some agents still needed basic equipment. Two SACs said
more administrative support was needed in the field, so agents would spend less time doing
clerical work. As discussed under Issue 2, OCEFT has brought such needs to the attention of
the Assistant Administrator.

The CID Director also identified leadership problems. He said some of the problems were
because top management did not appreciate the efforts of the criminal enforcement program.
For this reason and because of other management issues, he recently left EPA.

Strategic Planning and Results Measurement

OCEFT prepared a strategic plan with a mission statement containing two items that pertained
to the activities of CID: (1) conducting criminal investigations of violations that pose
significant threats to human health and the environment, and referring those cases for criminal
prosecution; and (2) providing investigative support for homeland security. This strategic plan
identified goals and, for each goal, significant activities and performance measures. The
performance measures included:

•   Number of criminal investigations.
•   Percent of criminal cases with actual or potential harm to public health and/or the
    environment and/or culpable conduct.
•   Aggregate numbers of criminal referrals to the Department of Justice, level of prison
    sentences, and level of criminal fines and restitution.
•   Number of criminal cases resulting in compliance change and environmental improvement
    (e.g., industrial process changes, removal, remediation or restoration, improved record
    keeping, initiation of audits or environmental management systems).
•   Aggregate amounts of pollution reduced or curtailed as a result of criminal prosecutions.
•   OCEFT will respond to 100% of the following activities:
       S Homeland security investigative leads that relate to the environment, including
             chemical or biological incidents;
       S Federal Bureau of Investigation requests for investigative, forensic or technical
             support; and
       S Participation in all National Security Special Events identified by the Office of
             Homeland Security as requested by the Secret Service.

Two of the above performance measures were included in EPA’s Goal 9 annual performance
goals for fiscal 2002: the number of criminal cases, and support for homeland security. For
FY 2002, both goals were met. (FY 2002 was the first year support for homeland security was
measured.) Number of criminal cases initiated is summarized in Table 6.2.




                                               27
As noted in Issue 5, CID has started                                  Table 6.2
measuring pollution reductions so they can be              Number of Criminal Cases Initiated
reported in the future. Finally, according to
OCEFT staff, CID is developing an additional            FY      Planned       Actual       Met?
measure that quantifies recidivism, which is a          2000       500          477         No
way to measure deterrence. They plan to
establish the baseline this year and apply it in        2001       450          482         Yes
2004.                                                   2002       400          674         Yes

Although CID tracks and reports output               2003        400
measures, it does not link these
outputs/activities to long-term
environmentally related outcome goals. Thus, OECA does not have complete information on
the results achieved to compare with the resources invested that it can use to make decisions
about future budget requests. See Issue 7 for additional discussion of measures.

Information Systems

CID relies on two automated management information systems to track and report on cases: the
Criminal Docket mentioned under Issue 5, and the Case Conclusion Database. CID enters
information about criminal cases into Criminal Docket at case initiation, and investigation and
prosecution information is tracked in it until case conclusion. A new case management,
tracking, and reporting system (Case Reporting System) is being developed to replace Criminal
Docket. It is expected to be a more user-friendly database with greater tracking, management,
and reporting capabilities. Using its own version of guidance developed by the Office of
Regulatory Enforcement, CID Special Agents prepare a “Case Conclusion Report” after the
conclusion of a criminal case. Information from the “Case Conclusion Report”, including an
estimate of the amount of pollution reduced, is entered into an automated system.

In addition, OCEFT has a formal time-tracking system called Employee Monthly Activity
Report. Agents record the number of hours spent on each case and summarize the time by
media. The summary information is then input into a database by OCEFT administrative staff,
so it can be used to allocate payroll costs by appropriation. The CID Director said that the
Employee Monthly Activity Report “... is inadequate. We can’t track or tell you the time
(costs) per case. Again, we need resources to fix this million-plus issue too.”

Human Resources

The policies related to personnel and other administrative matters generally come from OCEFT,
rather than CID. Since June 1999, OCEFT has identified courses to achieve the knowledge,
skills, and abilities needed to meet the requirements of the Pollution Prosecution Act of 1990.
There are different curricula for Special Agents at beginning, intermediate, and advanced levels.
For example, the first two basic courses are: a 9-week course that provides newly hired 1811
Special Agents the knowledge and skills needed to perform the duties of a Federal Criminal
Investigator; and a 7-week course that provides the knowledge, skills, and abilities that Special


                                                   28
Agents require for investigating criminal violations of environmental statutes. At the
intermediate level, the curriculum includes (among other courses) Special Agent in-service
training, which is a 5-day course that updates the Special Agent on legal, technical, and policy
issues applicable to investigating criminal violations of environmental laws. This course used
to be annual training, but (according to the CID Director) “it has been cut back due to lack of
resources.”

Although EPA generally uses “Individual Development Plans” to help employees identify ways
to improve current job performance, as well as meet long-term career goals, CID does not use
“Individual Development Plans” for their employees. According to the CID Director, “OECA
never had the funds to make them real.” We were told that CID manually tracks training
completed by its staff, and OCEFT’s National Environmental Training Institute monitors which
agents are completing mandatory training at the Federal Law Enforcement Training Center.
“Individual Development Plans,” especially for new Special Agents, would be useful for
ensuring that the training requirements are being met. OCEFT plans to establish a tracking
system for training. In addition, there is a formal on-the-job training program for new agents.
Under this program, the Special Agent mentoring the new agent submits an on-the-job
evaluation to the area office SAC.

The Special Agents Manual guides the CID Special Agents in the investigative process. This
Manual, which comes from OCEFT, is dated September 1998. It covers everything from
investigative reports to the use of force, and includes various checklists. We believe the Special
Agents Manual is generally adequate but needs to be updated. In addition, there is a separate
manual for the protective service detail. Agents are also provided a manual from the
Department of Justice on environmental crime. To supplement these manuals, the CID Director
issues policy statements as needed.

Every employee has a performance agreement that is discussed with his or her manager. The
standard agreement for a Resident Agent-in-Charge includes sections on: Case Management,
Investigation & Related Communication; Knowledge of Manuals, Laws, Regulations and
Procedures; Sources of Information & Liaisons; Professional Attributes; and Special Projects.
In addition, according to the CID Acting Deputy Director, CID tries to recognize agents’ work
with awards, which start with a nomination from the area office SAC. The Acting Deputy
Director believes the agents are the strength of the organization, citing their ability in FY 2002
to continue working on environmental cases even though other duties were added to their
workload.

CID is undergoing a workforce analysis to evaluate the effort and location of its staff. In
addition, at the request of the Assistant Administrator, a separate review of OCEFT is being
done by an EPA manager from outside OECA. The report on this review is expected in
November 2003.




                                                 29
30
                                       Issue 7
                        Enforcement Effectiveness

 7. Describe the effectiveness of EPA's enforcement policies in terms of: prioritization of
 repeat/significant offenders, prioritization of violations with significant impacts, and
 effectiveness of deterrence.

During recent years, OIG issued several reports on EPA’s enforcement programs and identified
issues that prevent the Agency from achieving and evaluating environmental results related to
its enforcement program. Below we have summarized some of the significant issues identified
from our work, as well as the OMB Program Assessment Rating Tool analysis and an OECA
internal review. Our audits focused primarily on program effectiveness and compliance with
applicable laws. Our multi-year plan for FY 2003-2005 contains work that will evaluate the
effectiveness of EPA’s processes for establishing enforcement priorities and measuring the
effectiveness of its enforcement activities. To respond to this request for information on EPA’s
prioritization of repeat/significant offenders, prioritization of violations with significant
impacts, and effectiveness of deterrence, we spoke with representatives from OECA to gather
an understanding of their processes.

Criminal Enforcement Priorities and Effectiveness

The priorities and measures of the criminal enforcement program were addressed under
Issues 3, 5 and 6. To summarize, criminal cases are opened based on criteria in the
investigative discretion policy: environmental harm and culpable conduct. In addition, the
Special Agents consider the priorities and concerns of the EPA regional staff. However, they
do not open a new case if they believe they do not have sufficient resources to handle it. CID
measures several outputs and outcomes from its operations. For FY 2002, two outputs from the
criminal program were part of EPA’s annual performance measures: number of criminal cases
initiated and support provided for homeland security. CID also measures pollution reductions
and court-ordered punishments. Although CID tracks and reports output measures, it does not
link these outputs to long-term environmentally-related outcomes. It is developing a measure to
quantify recidivism, as one way to measure deterrence.

Civil Enforcement Priorities

The Office of Regulatory Enforcement in OECA works with States, EPA regional offices,
tribes, and other Federal agencies to ensure compliance with the nation’s environmental laws
through facility inspections, civil enforcement actions, and compliance assistance and
incentives. Because environmental laws are generally media specific, OECA has established
enforcement policies by media. The various policies contain a special designation for facilities
that commit the worst offenses. They are called significant non-compliers, except for the air
program, which calls them high priority violators. The exact criteria for significant non-
compliers vary with each statute. For example, under the Resource Conservation and Recovery

                                               31
Act, operating a treatment, storage, or disposal facility without a permit classifies the facility as
a significant non-complier. The enforcement policies usually require specific enforcement
actions when a significant non-complier is involved.

Within the framework of these enforcement policies, the Office of Regulatory Enforcement,
together with OECA’s Office of Compliance and the EPA regions, establish national
enforcement and compliance priorities. These priorities are documented in agreements with the
regional offices, which are based on guidance provided by the Office of Compliance. For
FY 2002 and 2003, the national priorities were:

•   Clean Water Act – Wet Weather
•   Safe Drinking Water Act – Microbial Rules
•   Clean Air Act – New Source Review/Prevention of Significant Deterioration
•   Clean Air Act – Air Toxics
•   Resource Conservation and Recovery Act – Permit Evaders
•   Clean Air Act – Petroleum Refinery Sector

According to OECA officials, they have several methods to establish priorities. For example,
OECA has begun to conduct performance analyses of individual programs and program
components. The analyses are designed to provide senior managers with information from
EPA’s data systems that will help them better manage their programs, and to focus limited
resources on the programs where the potential for environmental impact is most significant.
In February 2003, an analysis of major facilities with permits under the National Pollutant
Discharge Elimination System (NPDES) was issued. This analysis, A Pilot for Performance
Analysis of Selected Components of the National Enforcement and Compliance Assurance
Program, concluded that “enforcement activity in the NPDES program (EPA and state
informal, and EPA formal actions) has been declining.” The decline is further discussed in
Issue 8. Regarding effectiveness, the report noted that:

       Data for EPA and the states for FY 1999-2001 show that a low percentage
       (9% -13%) of enforcement actions are taken timely and appropriately, only
       39% -40% of formal actions result in penalties, penalties are low (about $5,000
       per action), and escalation may not be occurring. EPA can not impose penalties
       on federal facilities where the SNC (significant non-compliers) rates are highest.
       Likelihood of inspections is high but decreased 8 percentage points in 3 years.

The analysis produced 13 recommendations for improving the enforcement and compliance
assurance program related to NPDES major facilities. According to staff in the Office of
Compliance, some of the recommendations are already completed and others are underway.

One of the recommendations from the February 2003 analysis was to establish a Facility Watch
List. It will be a key effort to address significant non-compliance at the facility level, because it
identifies facilities that have been in significant non-compliance for lengthy periods with no
apparent formal enforcement response from EPA or the authorized State. EPA expects that
increased management attention on potentially serious violators that have not received


                                                  32
enforcement attention will ensure that these violations are properly addressed, and will
significantly reduce the number of facilities that do not receive appropriate action under the
Clean Air Act, Clean Water Act, or Resource Conservation and Recovery Act.

OECA provided our office with other examples of on-going targeting mechanisms used for
examining patterns of non-compliance and prioritizing repeat/significant offenders. We have
listed these initiatives below. However, we did not evaluate the veracity of these efforts. The
Agency stated it:

•   Developed a new internal web interface called OTIS - Management Reports. The web
    interface allows staff and managers to quickly determine State or regional compliance and
    enforcement trends. This new interface also allows EPA and the States to easily spot
    changes in inspection patterns, non-compliance, and enforcement actions.

•   Compared reported releases of hazardous air pollutants to Clean Air Act Title V permit
    applications. This effort is beginning to identify facilities that are not operating with the
    required Clean Air Act permit.

•   Used the National Response Center database to evaluate companies with the most frequent
    spills to waters of the United States. This information has been used to develop
    enforcement cases, particularly within the pipeline industry. This targeting information was
    instrumental in a recently concluded Clean Water Act case that carried a $34 million
    assessed penalty.

Civil Enforcement Effectiveness

OECA had some performance measures for FY 2002 related to the effectiveness of the civil
enforcement program. Five of these measures, which were part of annual performance goal 58,
“Non-Compliance Reduction,” are summarized in Table 7.1. For example, one of the measures
was to develop statistically valid compliance rates for five new populations. The Agency plans
to use these analyses of compliance trends to determine where the most significant
environmental problems are, and where best to focus its resources.




                                                  33
                                          Table 7.1
              Performance Measures Under Annual Performance Goal 58 for FY 2002 *


                            Measure                               Planned         Actual      Met?

 Concluded enforcement actions requiring physical action             75%           77%        Yes
 that result in pollutant reductions and/or changes in facility
 management or information practices.

 Millions of pounds of pollutants required to be reduced            300 M         261 M       No
 through enforcement actions settled this fiscal year.

 Develop and use valid compliance rates or other indicators           5             5         Yes
 of compliance for selected populations.                          populations   populations

 Reduce the overall level of significant non-compliance              2%            1.6%       No
 recidivism among Clean Air Act, Clean Water Act, and              decrease      increase
 Resource Conservation and Recovery Act programs from
 FY 2000 levels.

 Increase over FY 2000 levels the proportion of significant           2%           3.8%       No
 non-complier facilities under the Clean Air Act, Clean            increase      decrease
 Water Act, and Resource Conservation and Recovery Act
 that returned to compliance in less than 2 years.
 * Data for fiscal 2003 will be available in November 2003.


Besides annual performance goal 58, OECA identified several other annual performance goals
related to Goal 9. Table 7.2 shows the 2002 goals. OECA reported that all of these goals were
met.




                                                         34
                                            Table 7.2
                         Other Annual Performance Goals Related to Goal 9

 Annual Performance Goal 59: INSPECTIONS/INVESTIGATIONS:
        EPA will conduct inspections, criminal investigations, and civil investigations targeted to
        areas that pose risks to human health or the environment, display patterns of
        non-compliance, or include disproportionately exposed populations.

 Annual Performance Goal 60: CAPACITY BUILDING:
        Improve capacity of States, localities, and tribes to conduct enforcement and compliance
        assurance programs. EPA will provide training, as well as assistance with State and tribal
        inspections, to build capacity, including implementation of the inspector credentials program
        for tribal law enforcement personnel.

 Annual Performance Goal 61: QUALITY ASSURANCE:
        Maintain and improve quality and accuracy of EPA’s enforcement and compliance data to
        identify non-compliance and focus on human health and environmental problems.

 Annual Performance Goal 62: INTERNATIONAL ENFORCEMENT:
        Ensure compliance with legal requirements for proper handling of hazardous waste imports
        and exports.

 Annual Performance Goal 63: HOMELAND SECURITY:
        EPA will provide direct investigative, forensic, and technical support to the Office of
        Homeland Defense, Federal Bureau of Investigation, and/or other Federal, State, and local
        law enforcement agencies to help detect and prevent, or respond to terrorist-related
        environmental, biological, or chemical incidents.

 Annual Performance Goal 64: COMPLIANCE INCENTIVES:
        Increase opportunities through new targeted sector initiatives for industries to voluntarily self-
        disclose and correct violations on a corporate-wide basis.

 Annual Performance Goal 65: ENVIRONMENTAL MANAGEMENT SYSTEMS:
        Promote the use of environmental management systems to address known compliance and
        performance problems.



Program Assessment Rating Tool Analysis of Civil and Criminal Enforcement

OMB instituted the Program Assessment Rating Tool to help integrate budgeting with
performance management, and to evaluate the effectiveness of Federal programs. Both EPA’s
civil and criminal enforcement programs were subjected to the OMB Program Assessment
Rating Tool analysis in 2003 for the FY 2005 budget. The civil enforcement program was also
reviewed in 2002; the results of the 2002 assessment are described below. OMB’s Program
Assessment Rating Tool evaluation of civil enforcement found that the program:

       ... lacks adequate outcome oriented performance measures. This impacts both
       program planning and results. With better outcome performance measures,
       program planning could be adjusted to achieve more effective results.



                                                     35
A second finding reiterated other evaluations that had reported concerns about data collection
and management, including “... lack of adequate workload analysis to support existing staffing
and priorities and b) the lack of good quality data to accurately determine compliance and
monitor the effectiveness of enforcement activities.” OMB’s final rating regarding EPA’s civil
enforcement program was “Results not demonstrated.”

OECA disagreed with the OMB position emphasizing only health-related outcomes. According
to OECA, OMB’s failure to recognize other outcomes ignores the management value of goals
based on intermediate outcomes, runs counter to General Accounting Office guidance and years
of performance measurement practice all across Federal and State government, and contradicts
the views of performance measurement experts serving on OMB’s own Performance
Measurement Advisory Council.

Draft comments from OMB on the results of the 2003 Program Assessment Rating Tool on
criminal enforcement were that:

       ... the criminal enforcement program lacks appropriate or sufficient number of
       long term outcome performance measures...it is the inadequacy of long term
       measures that also invalidate the criminal program’s existing targets, time
       frames, and annual measures...therefore OCEFT did not demonstrate the results
       of its program.

According to an OCEFT official, the type of information about the criminal enforcement
program that would satisfy OMB cannot be measured. As an example, he described the
difficulties in measuring how much criminal enforcement deters violating the laws. OECA
believes that the criminal enforcement program’s pollutant reduction measure and forthcoming
recidivism measure are relevant environmental outcome measures that accurately reflect how
the criminal enforcement program works.

Prior OIG Reports

Our March 2001 Report 2001-P-00006, Compliance with Enforcement Instruments, disclosed
that regional offices did not always adequately monitor compliance with enforcement
instruments, nor did they always consider further enforcement actions. Ineffective monitoring
was due primarily to the lack of (1) guidance detailing how or when to monitor enforcement
instruments and (2) emphasis OECA placed on monitoring. Ineffective monitoring may have
contributed to the regions not considering further enforcement actions for non-compliance with
enforcement instruments. Consequently, there was a risk that violations continued and
contributed to environmental harm or increased health risks and EPA’s effectiveness through
deterrence was adversely impacted. For example, we found instances where EPA had no
evidence that significant violations had been corrected. Some corrective actions were being
made when the report was issued. Since then, OECA has provided guidance to EPA regions on
tracking compliance with enforcement instruments and reporting the results. As of
September 23, 2003, OECA was still in the process of establishing a performance measure to
ensure that facilities under a formal enforcement action return to compliance.


                                              36
Additionally, our reports have identified other problems that prevented EPA from accurately
measuring environmental impact. For example:

•   Our January 2002 report 2002-P-00004, Unreliable Data Affects Usability of DOCKET
    Information, found significant amounts of incomplete pollutant information within the
    national DOCKET system. According to OECA, the quality and completeness of data for
    pollutant reductions has been improving. Regional offices are required to certify that their
    pollutant reduction data are complete and follow the methodology.

•   Our May 2003 report 2003-M-00014, EPA Should Take Further Steps to Address Funding
    Shortfalls and Time Slippages in Permit Compliance System Modernization Effort,
    identified funding shortages and implementation delays affecting the successful
    modernization of this key information system. OECA’s February 2003 analysis found that
    States are currently not required to enter penalty data into the Permit Compliance System,
    which limits the usefulness of the system for drawing conclusions about the effects of
    penalties on compliance and deterrence. This system is discussed further under Issue 8.

Adequate information systems remain an issue for EPA. In a May 2003 status report, EPA
identified key management challenges confronting the Agency. While EPA has made
continued progress on most challenges, the list identified the same management challenges
reported in 2002, including three related to information systems that had been identified by
OIG: (1) linking mission and management; (2) information resources management and data
quality; and (3) EPA’s information systems security.




                                                37
38
                                           Issue 8
                                  Water Enforcement

    8. Provide an analysis of the effectiveness of the Permit Compliance System (PCS) data
    system used by the water enforcement division and the adequacy of EPA's support of efforts
    to upgrade the system. Further identify why both the EPA's and the States' formal
    enforcement actions have declined so significantly since FY 1999, with the EPA's declining
    further than that of the States'. Evaluate the legitimacy of the EPA's claim that this reduction
    is due to a diversion of resources to wet weather discharge enforcement actions. Quantify any
    diversion in terms of FTEs.

Among other things, the Permit Compliance System (PCS) tracks formal enforcement actions
under the Clean Water Act. According to a recent analysis by OECA, such actions have
declined in recent years. According to OECA staff, the decline is due to the shift in national
priorities to wet weather discharges. We were unable to confirm the effect of the shift on
formal enforcement actions. However, we are providing information on enforcement actions
related to wet weather discharges. These discharges are not tracked by PCS, which is one
reason EPA plans to replace it. Development of the replacement system is taking longer than
originally planned.

Permit Compliance System

EPA uses PCS to support the NPDES program. PCS tracks NPDES permit issuance, permit
limits, self-monitoring data, and enforcement and inspection activity for more than 64,000
facilities regulated under the Clean Water Act. PCS has been identified as an Agency weakness
since 1999. Reasons include its reported unreliability due to missing data and data quality
problems. Moreover, compliance data are not captured for hundreds of thousands of smaller
dischargers, or for new categories of discharges for storm water, pretreatment, and concentrated
animal feeding operations. As of October 8, 2003, EPA extended the completion date for
correcting the PCS Agency weakness to FY 2006 due to funding shortfalls and extensive and
time-consuming stakeholder input and review process.

The effort to modernize PCS started in 1997 and is in the detailed design phase. In May 2003,
we reported in Report 2003-M-00014 that, after several delays, implementation of the
modernized PCS was planned for the end of FY 2005. In his June 30, 2003, response to the
report, the OECA Assistant Administrator identified four reasons for these delays:

•     Adequate funding was not available within the timeframes needed.
•     OECA was establishing the core database and web-based interface to provide activity
      tracking (e.g., inspections, enforcement actions) and management analysis capabilities for
      headquarters and regional elements of the Federal enforcement and compliance program.


                                                   39
•   They were required to change contractors between the system requirement and system
    design phases.
•   More time was needed to get input from everyone using the system.

With regard to funding, the OECA Assistant Administrator indicated they would be developing
a plan to fully fund the modernization effort. An additional $5 million for PCS was included in
the President’s 2004 budget request.

Formal Enforcement Actions vs. Wet Weather Discharge Actions

OECA staff analyzed formal enforcement actions related to NPDES major facilities. Their
February 2003 report showed that between 1999 and 2001 there was an overall decrease in total
EPA and State formal actions of 11 percent,
with a 9-percent increase for States and a                          Table 8.1
45-percent decrease for EPA. The number of                  Number of Formal NPDES
formal actions is shown in Table 8.1. According               Enforcement Actions
to OECA staff, the decline was due to the shift        FY       State       EPA       Total
in national priorities to wet weather discharges.     1999       410        235        645
Based on States’ 305b reports on impaired             2000       527        162        689
waterways, EPA concluded in about 1990 that           2001       447        130        577
wet weather discharges were very harmful and
had to be addressed. Wet weather discharges are
storm water discharges, or overflows from combined sewers, sanitary sewers, or concentrated
animal feeding operations. According to OECA, since 1995, 174 Federal enforcement actions
to address overflows from combined sewers or sanitary sewers were completed (see Table 8.2)
and 27 are ongoing. Since 1997, 178 Federal enforcement actions were filed to address
overflows from concentrated animal feeding operations (see Table 8.3).

                     Table 8.2                                        Table 8.3
      Civil Administrative and Judicial Orders        EPA Clean Water Act Enforcement Actions
    Issued Since 1995 Concerning Overflows of                 Filed Since 1997 Against
       Sanitary Sewers or Combined Sewers                      Owners or Operators of
                                                      Concentrated Animal Feeding Operations
              FY          Concluded Actions
                                                                  FY          Number Filed
             1995                  3
             1996                 12                             1997              14
             1997                 15                             1998              43
             1998                 11                             1999              40
             1999                 15                             2000              44
             2000                 11                             2001              18
             2001                 21                             2002               4
             2002                 51                             2003 *            15
             2003 *               35                               Total          178
               Total             174
                                                      * Not final figures
    * Not final figures




                                                 40
Work related to these actions preceded the date the actions were filed. Further, in some cases,
work continued after the actions were concluded. Data was not readily available on the number
of storm water Federal enforcement actions before FY 2003 because until June 2002 the EPA
Regions were not required to report data by priority area. According to OECA, the preliminary
data shows 239 final administrative orders related to storm water were issued during FY 2003.

According to OECA staff, it takes more resources to pursue a wet weather discharge action than
a NPDES formal action because:

•   Finding the discharge and tying it to the discharger can be difficult. For example, a
    construction project may be a temporary situation, or a municipality may not have discharge
    points documented on its drawings.
•   EPA must prove the water was harmed by the discharge, which may take extensive
    laboratory work or section 308 requests for information.
•   Most of the defendants are municipalities, who generally have little money.
•   The fix (injunctive relief) may be expensive and long-term.

On the other hand, a NPDES case is often based on self reporting. The violation is clear as it is
based on the facility’s own tests and the terms of its permit. In addition, the fix is usually
easier, and the defendant is usually not a municipality. Since information on the actual FTE
used for wet weather cases is not kept, we were unable to evaluate the legitimacy of EPA’s
claim that formal enforcement actions declined due to a diversion of resources to wet weather
discharge enforcement actions.




                                                41
42
                                                                                  Appendix A

                          Scope and Methodology

The scope for this assignment was determined by a Congressional request asking the OIG to
investigate management, funding, and staffing needs of EPA’s OECA. We were asked to
expedite the request so that the information we provided could be used to finalize EPA’s
FY 2004 budget. Our work consisted primarily of obtaining and analyzing information from
EPA’s management information systems and interviewing individuals involved in EPA’s
enforcement program, including Special Agents-in-Charge involved with EPA’s criminal
enforcement activities, and regional officials who are involved with EPA’s civil enforcement
actions. Due to time constraints, we were unable to verify the accuracy of the data obtained
from EPA’s systems.

Since the scope of our work consisted of gathering, providing, and explaining information
requested by Congress, not audit or evaluation services, we did not conduct our work in
accordance with all Government Auditing Standards issued by the Comptroller General of the
United States. Specifically, we did not: evaluate management controls; determine compliance
with laws and regulations; follow up on prior audit work; or test the evidence collected,
including the data.

Our work included limited reviews of EPA policies, operating plans, reports, and other
documents relative to enforcement and enforcement personnel. We also reviewed three
Presidential Decision Directives on terrorism and protecting infrastructure; the Homeland
Security Presidential Directive 5; and EPA and the President’s budget requests for enforcement
for FY 2000-2004, as well as the related enacted budgets and operating plans. We obtained
data on enforcement program costs, FTEs, and cases from EPA systems. We relied on data
from EPA’s Budget Automation System, Integrated Financial Management System, and
Criminal Docket. CID enforcement results are recorded in Criminal Docket. Due to the short
timeframe to complete the work, we did not review supporting documentation for data in the
systems and did not verify the accuracy of the data.

We also relied on information relative to criminal and civil enforcement obtained from
interviews with EPA Headquarters staff in OECA, including the Office of Compliance, Office
of Regulatory Enforcement, and CID within OCEFT. In addition, we interviewed five Special
Agents-in-Charge from five CID area offices.

OECA provided us a list of civil cases where EPA is the lead agency and, according to EPA
policy, should have taken formal enforcement under the Clean Air Act or the Resource
Conservation and Recovery Act. However, according to data in the systems, no formal
enforcement has been taken for at least 2 years. Again due to time constraints, we were unable
to review files and had to rely on interviews with EPA regional officials for information about
the cases on the list. We interviewed officials in Regions 2 and 6 about the Clean Air Act
enforcement cases and officials in Regions 5 and 7 about the Resource Conservation and

                                               43
Recovery Act cases. Region 6 officials also provided information on civil enforcement in the
Region’s water and hazardous waste programs, homeland security, and civil enforcement in
general. Region 7 also provided civil enforcement information from a general regional
perspective in addition to Resource Conservation and Recovery Act enforcement information.

Prior OIG Coverage

•   EPA Should Take Further Steps to Address Funding Shortfalls and Time Slippages in
    Permit Compliance System Modernization Effort, Report 2003-M-00014, May 20, 2003

•   Land Application of Biosolids, Report 2002-S-00004, March 28, 2002.

•   Unreliable Data Affects Usability of DOCKET Information, Report 2002-P-00004,
    January 18, 2002.

•   State Enforcement of Clean Water Act Dischargers Can Be More Effective,
    Report 2001-P-00013, August 14, 2001.

•   Compliance with Enforcement Instruments, Report 2001-P-00006, March 29, 2001.

•   Report of EPA’s Oversight of State Stack Testing Programs, Report 2000-P-00019,
    September 11, 2000.

•   EPA’s Multimedia Enforcement Program, Report 2000-P-000018, June 30, 2000.

•   Biosolids Management and Enforcement, Report 2000-P-00010, March 20, 2000.

•   Consolidated Report on OECA's Oversight of Regional and State Air Enforcement
    Programs, Report E1GAE7-03-0045-8100244, September 25, 1998.




                                              44
                                                                                       Appendix B



                                Tables for Issue 2



                                          Table B.1
                              Goal 9 Actual Costs (in thousands)
                            By Major Organization for FY 2000-2003

Organization                                     2000              2001         2002        2003*
Region 1                                    $15,798.9         $17,442.0    $16,830.1    $13,585.9
Region 2                                     22,809.9          23,684.1     23,913.9     20,288.9
Region 3                                     23,258.6          24,030.8     23,924.6     21,294.0
Region 4                                     31,709.4          32,443.7     31,731.8     29,647.8
Region 5                                     35,842.1          38,779.8     39,035.3     33,942.2
Region 6                                     27,243.0          28,770.9     28,893.5     24,516.0
Region 7                                     15,388.8          15,395.2     15,707.7     14,764.2
Region 8                                     14,312.9          14,572.0     15,683.5     12,185.5
Region 9                                     23,200.0          24,241.4     25,436.9     19,855.4
Region 10                                    13,308.7          13,569.7     14,335.1     12,914.1
Office of Administration and                 38,868.8          42,489.5     33,452.1        351.2
 Resources Management
Office of Chief Financial Officer             2,794.1           3,083.9      3,082.0        (62.0)
Office of General Counsel                       (65.1)          1,331.0        833.9        899.6
Office of Enforcement and                   106,290.5         111,518.5    126,530.4    114,455.4
 Compliance Assurance
Merged Appropriations Accounts                 178.3              206.7          0.0         17.3
                            Totals        $370,939.0         $391,559.1   $399,391.1   $318,655.5



    * 2003 amounts are as of August 28, 2003.

    In some cases, columns may not add up due to rounding.




                                                 45
                                              Table B.2
                                          Goal 9 Actual FTE
                                    by Major Office in FY 2000-2003

                     Organization                            2000        2001       2002     2003 *
Region 1                                                    109.0       118.1      109.1      100.2
Region 2                                                    174.4       168.8      169.6      153.2
Region 3                                                    152.5       149.1      162.1      144.9
Region 4                                                    210.3       236.5      227.4      195.8
Region 5                                                    252.8       278.3      269.2      225.8
Region 6                                                    208.7       230.2      216.6      196.7
Region 7                                                    114.5       115.2      114.5      101.4
Region 8                                                    104.4          2.5     102.7       92.7
Region 9                                                    140.8       151.5      147.7      137.1
Region 10                                                   107.0       115.8      113.6       97.8
Office of Administration and Resource Management             17.4          1.4       0.0        0.0
Office of Chief Financial Officer                             14.6         0.0        0.0       0.0
Office of General Counsel                                      4.4        12.7        6.6       7.8
Office of Enforcement and Compliance Assurance              703.2       724.5      756.9      722.9
                        Totals                            2,313.9     2,304.6    2,396.1    2,176.3



 * 2003 amounts are as of August 29, 2003.

 In some cases, columns may not add up due to rounding.




                                                     46
                                            Table B.3
                                  Superfund Actual FTE in Goal 9
                              by Major Organization for FY 2000-2003

                    Organization                                 2000       2001    2002    2003*
Region 7                                                         (0.1)        0.0     0.0     0.0
Office of Chief Financial Officer                                  0.6        0.0     0.0     0.0
Office of Enforcement and Compliance Assurance                   93.0        93.8    95.8    94.5
                       Totals                                     93.5       93.8    95.8    94.5


 * 2003 amounts are as of August 29, 2003.




                                          Table B.4
                            OECA Actual FTE by Goal for FY 2000-2003

                 Goal                   2000              2001            2002      2003*
                  5                      96.5            101.8           103.9       95.3
                  6                       0.0              0.0              0.0       0.3
                  7                      29.6             30.3            25.8       19.0
                  9                     703.2            724.5           756.9      722.9
                Totals                  829.3            856.6           886.6      837.5


            * 2003 amounts are as of August 29, 2003.




                                                    47
                                           Table B.5
                           OECA Actual Costs by Office for FY 2000-2003

                 Description *                        2000           2001         2002      2003 **
Immediate Office - Assistant Administrator        $308,817     $3,689,582   $4,266,548    ($48,547)
for Enforcement and Compliance Assurance
Administration and Resource Management            3,189,854     2,596,552    2,965,261    3,214,812
Support Staff
Assistant Administrator Enforcement -             3,156,368     3,241,164    4,203,097   10,626,035
Immediate Office
OECA LAN Support                                    169,950       870,298      619,838      171,741
Office of Planning & Policy Analysis and          3,689,220     3,307,661    3,784,739       25,844
Communication
Office of Environmental Justice                   4,377,709     4,071,312    3,506,337      147,331
             Subtotal OECA Immediate Office      14,891,919    17,776,568   19,345,821   14,137,216
Office of Federal Activities (OFA)
Mountaintop Mining                                  100,000             0            0            0
Office of Federal Activities                      3,882,890     4,243,379    3,925,327    3,365,683
                                 Subtotal OFA     3,982,890     4,243,379    3,925,327    3,365,683
Office of Criminal Enforcement, Forensics
and Training (OCEFT)                                  5,860       376,471      144,226        5,076
Seattle - Region 10 CID                             950,000             0            0            0
New York - Region 2 CID                                   0             4            0            0
Philadelphia - Region 3 CID                               0           178           11          351
Chicago - Region 5 CID                                    0           316         -316            0
Legal Counsel and Resource Management             2,394,011     2,292,731    3,879,411    4,024,663
Division
Criminal Investigation Division                  24,825,805    26,554,894   29,209,206   28,037,040
Immediate Office - OCEFT                          4,436,825     5,980,879    7,710,617    8,900,312
Director National Enforcement Investigations
Center Division                                  13,277,509    11,776,798   12,926,095   11,350,618
National Enforcement Training Institute           4,416,908     4,849,371    4,727,405    4,389,508
Division
                               Subtotal OCEFT    50,306,917    51,831,643   58,596,655   56,707,569
Office of Compliance (OC)                             4,406        55,173      250,000       (1,835)
Natl Center for Manufacturing Sciences - MI               0       498,900            0      268,200
OC - Immediate Office                             1,257,836     1,714,992    1,597,993    1,171,494
Enforcement Training Planning, Targeting
and Data Division                                10,918,959    11,619,063   15,378,100   11,782,347
Manufacturing, Energy, Transportation             3,437,581     3,784,530    3,059,311    2,687,694
Division
Chemicals, Communications Services &
Municipals Division                               4,889,421     4,009,351    4,042,267    3,807,846
Agriculture and Ecosystems Division               3,038,898     3,286,122    2,858,325    2,646,410
National Enforcement Investigations Center
Division - Denver                                   344,984       200,494      200,695      196,939
Pesticide Enforcement State Grants                   (6,785)            0            0            0
Oil Spill                                            86,797        93,914       83,812       90,085
                                   Subtotal OC   23,972,097    25,262,539   27,470,504   22,649,180




                                                   48
                 Description *                              2000          2001             2002          2003 **
Office of Regulatory Enforcement (ORE)                     1,849        12,385        (179,500)           1,217
Office of Regulatory Enforce-CT                                0             0          179,500                0
Preparedness
Air Enforcement Division                             5,504,258        5,491,460      6,008,786        5,194,148
ORE - Immediate Office                               1,401,453        2,076,356      1,874,203        1,742,876
Multimedia Enforcement / Strategic Plan              3,099,974        3,519,682      3,598,316        3,311,178
RCRA Enforcement Division                            1,870,403        2,848,255      2,675,715        1,956,279
Toxics and Pesticides Enforcement Division           2,827,124        2,989,763      3,321,565        2,796,276
Water Enforcement Division                           4,530,992        4,379,262      5,133,911        4,156,459
                                Subtotal ORE        19,236,053       21,317,163     22,612,495       19,158,433
Office of Site Remediation Enforcement                  86,047          448,846        401,348                0
(OSRE)
Site Specific Region 03                                      0              259              0                0
Management Division                                 33,160,764       32,475,309     30,745,573       30,580,655
Policy and Program Evaluation Division               5,512,726        4,463,883      5,026,387        3,882,430
Regional Support Division                            4,361,139        4,559,155      4,523,940        4,658,081
                               Subtotal OSRE        43,120,676       41,947,452     40,697,248       39,121,166
Federal Facilities Enforcement (FFE)                     5,542            1,887              0                0
Federal Facilities Enforcement                       3,469,509        3,320,449      3,312,100        2,915,788
                                 Subtotal FFE        3,475,051        3,322,336      3,312,100        2,915,788
Office of Enforcement Capacity and Outreach
(OECO)                                                  25,984                0               0                  0
Communications                                         199,806          101,121               0                  0
OECO - Immediate Office                                915,167          760,511               0                  0
Environmental Justice                                   97,800           58,014               0                  0
Constituent Outreach and Communication                 508,379          239,447               0                  0
                               Subtotal OECO         1,747,136        1,159,093               0                  0
Office of Planning, Policy Analysis and
Communications (OPPAC)                                        0               0               0           15,606
Office of Planning, Policy Analysis and
Communications                                                0               0               0        3,055,729
                             Subtotal OPPAC                   0               0               0        3,071,335
Office of Environmental Justice (OEJ)                         0               0               0          782,243
Office of Environmental Justice                               0               0               0        2,506,870
                                Subtotal OEJ                  0               0               0        3,289,113

                    Totals                       $160,732,738      $166,860,173   $175,960,149     $164,415,482



 * These descriptions came from the accounting system and may not match the official name of the organization.
 ** These figures are as of September 2, 2003.

 In some cases, columns may not add up due to rounding.




                                                      49
                                           Table B.6
                            OECA Actual FTE by Office for FY 2000-2003

                             Description *                               2000    2001    2002    2003**
OECA Immediate Office
Administration and Resource Management Support Staff                      20.9    25.9    31.6     26.4
Assistant Administrator Enforcement - Immediate Office                     7.7     7.8    10.3     18.5
Office of Planning & Policy Analysis and Communication                    23.1    24.2    25.8     -0.3
Office Environmental Justice                                              14.2    14.5    13.9      0.9
                                        Subtotal OECA Immediate Office    65.8    72.4    81.5     45.5

Office of Federal Activities                                              27.8    28.7    27.1     24.7
Office of Criminal Enforcement, Forensics and Training (OCEFT)
Legal Counsel and Resource Management Division                            21.1    22.0    34.6    34.6
Criminal Investigation Division                                          192.1   203.0   216.6   208.1
Immediate Office Criminal Enforcement                                     17.8    16.0    18.1    22.9
Director National Enforcement Investigations Center Division              93.3    95.6    98.1    89.1
National Enforcement Training Institute Division                          22.1    23.2    23.3    22.5
                                                        Subtotal OCEFT   346.5   359.8   390.7   377.1
Office of Compliance (OC)
Office of Compliance - Immediate Office                                    7.2     6.6     7.1     6.0
Enforcement Planning, Targeting and Data Division                         66.2    67.9    69.9    62.6
Manufacturing, Energy, Transportation Division                            23.7    23.3    20.6    20.9
Chemicals, Communications Services & Municipals Division                  25.2    21.3    24.8    21.5
Agriculture and Ecosystem Division                                        22.4    22.3    20.4    17.8
National Enforcement Investigations Center Division Denver                 3.6     2.2     2.1     1.9
Oil Spill                                                                  0.9     1.0     0.9     0.8
                                                           Subtotal OC   149.4   144.5   145.7   131.3
Office of Regulatory Enforcement (ORE)
Air Enforcement Division                                                  34.6    37.0    37.0    36.6
Office of Regulatory Enforcement - Immediate Office                        6.8     9.0     9.6     8.2
Multimedia Enforcement / Strategic Plans                                  21.2    24.2    22.7    24.2
RCRA Enforcement Division                                                 16.4    17.2    17.2    14.5
Toxics and Pesticides Enforcement Division                                23.9    26.8    24.6    22.0
Water Enforce Division                                                    26.1    26.0    26.9    24.8
                                                          Subtotal ORE   129.1   140.1   137.8   130.3
Office of Site Remediation and Enforcement (OSRE)
Management Division                                                       17.1    17.9    18.4     15.0
Policy and Program Evaluation Division                                    32.3    30.5    33.2     30.0
Regional Support Division                                                 30.6    35.0    32.5     31.3
                                                         Subtotal OSRE    79.9    83.4    84.1     76.3




                                                   50
                              Description *                                    2000     2001     2002    2003**
Federal Facility Enforce                                                       18.8     20.7     19.6      18.3
Office of Enforcement Cap and Outreach (OECO)
Communications                                                                  2.8      1.6
Office of Enforcement Cap and Outreach - Immediate Office                       3.8      2.2
Environmental Justice                                                           0.9      0.6
Constituent Outreach and Communication                                          4.6      2.5      0.0
                                                       Subtotal OECO           12.1      6.9      0.0       0.0

Office of Planning, Policy Analysis and Communication                                                      22.0

Office of Environmental Justice                                                                            11.9

                                  Totals                                      829.3    856.5    886.6     837.5




 * These descriptions came from the accounting system and may not match the official name of the organization.
 ** These figures are as of August 29, 2003.

 In some cases, columns may not add up due to rounding.




                                                      51
                                           Table B.7
                               OECA Actual Costs for Contracts and
                        Assistance Agreements by Office in Fiscal 2000-2003

              Description *                     2000           2001             2002      2003 **
Immediate Office - Assistant
Administrator for Enforcement and                 $0         $6,555           $52,589          $0
Compliance Assurance
Administration and Resource
Management Support Staff                      10,475        386,860           317,379     645,023
OECA - Immediate Office                      172,162        306,187           591,260   1,165,753
OECA LAN Support                               4,585          1,405           423,104   (162,854)
Office of Planning & Policy Analysis and
Communication                                 512,147        794,503       823,934        (10,139)
Office of Environmenal Justice              1,802,093      2,298,745     1,673,657           5,473
        Subtotal OECA Immediate Office      2,501,462      3,794,254     3,881,922      1,643,256
Office of Federal Activities (OFA)
Mountaintop Mining                           100,000               0                0          0
Office of Federal Activities                 821,297       1,294,902          908,685    433,817
                             Subtotal OFA    921,297       1,294,902          908,685    433,817
Office of Criminal Enforcement,
Forensics and Training (OCEFT)
Seattle - Region 10 CID                      950,000              0                0            0
Legal Counsel and Resource
Management Division                           272,775         36,640       218,450        114,685
Criminal Investigation Division               419,512        482,283       614,577        509,249
Immediate Office - OCEFT                    1,062,807      2,458,594     1,512,588      2,092,639
Director National Enforcement               2,624,277      1,405,641     2,040,259      1,228,722
Investigations Center Division
National Enforcment Training Institute      1,552,222      2,042,345     1,827,628      1,637,440
Division
                          Subtotal OCEFT    6,881,594      6,425,504     6,213,502      5,582,735
Office of Compliance (OC)                           0              0       100,000              0
Natl Ctr for Manuf Sciences - MI                    0        498,900             0        268,200
OC - Immediate Office                         370,452        791,566       664,077        355,929
Enforcement Planning, Targeting and
Data Division                               3,812,790      4,330,566     7,509,697      4,418,435
Manufacturing, Energy, Transportation
Division                                     826,362       1,270,580          781,292    277,689
Chemicals, Communications Services &
Municipals Division                         2,119,999      1,688,925     1,382,320      1,254,473
Agriculture and Ecosystem Division            630,659        814,600       528,477        428,302
                              Subtotal OC   7,760,261      9,395,138    10,965,863      7,003,028
Office of Regulatory Enforcement (ORE)
Air Enforcement Division                    1,714,841      1,537,080     1,870,969       923,643
ORE - Immediate Office                        463,553        819,765       571,560       622,056
Multimedia Enforcement / Strategic            675,007        918,821       872,989       384,206
Plans
RCRA Enforcement Division                     70,511        996,436           712,194    229,341
Toxics and Pesticides Enforcement            279,269        242,865           547,408    252,672
Division


                                                 52
               Description *                          2000             2001             2002            2003 **
Water Enforcement Division                       1,624,535        1,501,850        2,030,246         1,105,811
                            Subtotal ORE         4,827,716        6,016,816        6,605,365         3,517,729
Office of Site Remediation Enforcement
(OSRE)
Management Division                             30,974,488       30,492,264       28,763,925       28,259,032
Policy and Program Evaluation Division           2,299,505        1,474,411        1,628,045          451,926
Regional Support Division                          908,639          793,401          775,039          762,377
                          Subtotal OSRE         34,182,632       32,760,076       31,167,009       29,473,336
Federal Facilities Enforcement                   1,272,964          946,217          974,331          567,064
Office of Enforcement Cap and                      507,132          601,311                0                0
Outreach
Office of Planning, Policy Analysis and
Communications (OPPAC)                                     0              0                 0            3,560
Office of Planning, Policy Analysis and
Communications                                             0              0                 0          344,625
                         Subtotal OPPAC                    0              0                 0          348,185
Office of Environmental Justice (OEJ)                      0              0                 0          731,547
Office of Environmental Justice                            0              0                 0          918,024
                            Subtotal OEJ                   0              0                 0        1,649,571

                 Totals                       $58,855,058       $61,234,217      $60,716,678      $50,218,721



 * These descriptions came from the accounting system and may not match the official name of the organization.
 ** These figures are as of September 2, 2003.

 In some cases, columns may not add up due to rounding.




                                                      53
                                   Table B.8
                  Resource Changes for Fiscal Years 2000-2004
            National Enforcement and Compliance Assurance Program

                                                               Dollars
Description                                            (in thousands)     FTE
FY 2000 Operating Plan                                       $445,838    3,565
                                    Difference*               $19,149      (28)
FY 2001 Operating Plan                                       $464,987    3,537
                                    Difference*                $9,335      (50)
FY 2002 Operating Plan **                                    $474,322    3,487
                                    Difference*                $9,894      (22)
FY 2003 Operating Plan                                       $484,216    3,465
                                    Difference*               $18,447      (54)
FY 2004 President's Request                                  $502,663    3,411


* Represents the difference between the fiscal year operating plans.
** The 2002 operating plan included the supplemental appropriation.




                                             54
                                            Table B.9
                    National Enforcement and Compliance Assurance Program
                    Total Operating Plan by Headquarters and Regional Office
                            (Dollars in Thousands, All Appropriations)

             Organization                    2000           2001          2002       2003
Office of Compliance                      $25,077        $26,178       $24,990    $24,159
Office of Compliance State Grants         $27,276        $27,216       $27,216    $27,216
Office of Regulatory Enforcement          $20,287        $22,456       $21,671    $20,635
Office of Criminal Enforcement,
Forensics, and Training                   $52,015        $54,628       $54,387    $58,810
   Homeland Security Supplemental                                      $10,991
Office of Site Remediation
Enforcement                               $20,421        $20,067       $21,771    $15,380
DOJ Support                               $28,663        $28,437       $28,150    $27,967
Federal Facilities Enforcement Office      $3,702         $3,315        $3,396     $3,248
Office of Federal Activities               $4,127         $4,484        $4,361     $3,959
Office of Environmental Justice            $3,793         $4,671        $4,424     $5,360
Office of Enforcement Capacity and
Outreach                                    $1,410
Office of Planning, Policy Analysis,
and Communications (OPPAC)                  $2,710        $3,792        $3,655     $3,482
Immediate Office, Assistant
Administrator for Enforcement and
Compliance Assurance                      $10,460        $11,770       $12,959    $13,575
                         Subtotal OECA   $199,941       $207,014      $217,971   $203,791

Region 1                                  $17,749        $18,632       $17,731    $20,890
Region 2                                  $25,884        $27,497       $26,623    $29,911
Region 3                                  $28,975        $28,744       $28,407    $30,323
Region 4                                  $32,298        $33,974       $35,411    $36,649
Region 5                                  $39,107        $42,637       $43,441    $46,680
Region 6                                  $24,954        $26,800       $26,926    $28,386
Region 7                                  $15,745        $15,892       $17,591    $17,692
Region 8                                  $18,307        $18,747       $17,342    $19,535
Region 9                                  $26,188        $27,710       $25,460    $29,943
Region 10                                 $16,690        $17,339       $17,418    $20,417
            Subtotal Regional Offices    $245,897       $257,972      $256,350   $280,426

               Totals                    $445,838       $464,986      $474,321   $484,217




                                               55
                                           Table B.10
                   National Enforcement and Compliance Assurance Program
                 Total Enacted Budget FTE by Headquarters and Regional Office
                                      (All Appropriations)

                 Organization                    2000      2001      2002       2003
Office of Compliance                              159       156       148        149
Office of Regulatory Enforcement                  139       143       140        138
Office of Criminal Enforcement, Forensics,
and Training                                         386    386       376        400
   Homeland Security Supplemental                                      80
Office of Site Remediation Enforcement               88      88        87         87
Federal Facilities Enforcement Office                21      21        20         21
Office of Federal Activities                         28      28        27         26
Office of Environmenal Justice                       13      13        13         13
Office of Enforcement Capacity and Outreach          11
Office of Planning, Policy Analysis, and
Communications (OPPAC)                                22     27         24        23
Immediate Office, Assistant Administrator for
Enforcement and Compliance Assurance                  31     34         32        31
Reserve                                                6
                                Subtotal OECA        904    896       947        888

Region 1                                           183       181       174        176
Region 2                                           279       277       266        270
Region 3                                           295       292       283        286
Region 4                                           371       369       354        360
Region 5                                           454       452       435        441
Region 6                                           284       282       269        275
Region 7                                           183       182       175        177
Region 8                                           176       174       168        171
Region 9                                           254       252       243        246
Region 10                                          181       180       173        175
                    Subtotal Regional Offices    2,660     2,641     2,539      2,577

                   Totals                        3,564     3,537     3,486      3,465




                                                56
                                      Table B.11
               National Enforcement and Compliance Assurance Program
                   Enacted Budget FTE Levels, Fiscal Years 2000-2003
                                   by Appropriation

               Appropriation                  2000     2001      2002            2003
Environmental Program and Management          2,320    2,300     2,178       2,237
Superfund                                     1,145    1,137     1,129       1,129
Oil Spills                                       16       16        16          16
Leaking Underground Storage Tanks                 6        6         6           5
Science and Technology                           78       78        78          78
Homeland Security Supplemental                                      80

                      Totals                  3,565    3,537     3,487       3,465




                                      Table B.12
               National Enforcement and Compliance Assurance Program
                   Enacted Budget FTE Levels, Fiscal Years 2000-2003
                                   by Agency Goal

             Goal               2000          2001        2002           2003
    Goal 5                      1,067         1,060      1,049           1,053
    Goal 7                         31            26         26              26
    Goal 9                      2,466         2,451      2,412           2,386

             Totals             3,564         3,537      3,487           3,465




                                         57
58
                                                                            Appendix C

                                    Distribution

United States Senate

The Honorable James M. Jeffords
The Honorable Barbara Boxer
The Honorable Frank R. Lautenberg
The Honorable Joseph I. Lieberman
The Honorable Patrick J. Leahy
The Honorable John F. Kerry
The Honorable Ron Wyden
The Honorable Barbara A. Mikulski


United States House of Representatives

The Honorable John D. Dingell
The Honorable James L. Oberstar
The Honorable Hilda L. Solis
The Honorable Rick Boucher


U.S. Environmental Protection Agency (electronic distribution)

Assistant Administrator for Enforcement and Compliance Assurance
Chief Financial Officer
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Regional Administrator, Region 4
Audit Liaisons




                                             59
